NO. 19-984
IN THE

Supreme Court of the United States
MAZIE SLATER KATZ & FREEMAN,

v.
COMMON BENEFIT FEE AND COST COMMITTEE,

Petitioner,

Respondent.

PROOF OF SERVICE
I, Rita L. Hemenway of Bateman & Slade, Inc., hereby declare
that on this twentieth day of March 2020, I have served three (3) true
copies of the Reply Brief for Petitioner by express mail, postage
prepaid, addressed as follows:
Benjamin L. Bailey
Raymond Franks
Bailey & Glasser, LLP
209 Capitol Street
Charleston, WV 25301
(304) 345 6555
bbailey@baileyglasser.com
Signed under the pains and penalties of perjury,

Rita L. Hemenway
Rita L. Hemenway
NOTARIZED BY:

George D. Bateman
George D. Bateman
My Commission Expires: May 30, 2025

